<html>
<title> - NOMINATIONS OF MINDY BRASHEARS, NAOMI C. EARP, AND SCOTT HUTCHINS</title>
<body><pre>[Senate Hearing 115-695]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-695

   NOMINATIONS OF MINDY BRASHEARS, NAOMI C. EARP, AND SCOTT HUTCHINS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 CONSIDERING THE NOMINATIONS OF MINDY BRASHEARS, OF TEXAS, TO BE UNDER 
    SECRETARY FOR FOOD SAFETY, NAOMI C. EARP, OF MARYLAND, TO BE AN 
   ASSISTANT SECRETARY, AND SCOTT HUTCHINS, OF INDIANA, TO BE UNDER 
SECRETARY FOR RESEARCH, EDUCATION, AND ECONOMICS, ALL OF THE DEPARTMENT 
                             OF AGRICULTURE
                               __________

                           NOVEMBER 28, 2018
                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
       Available via the World Wide Web: http://www.govinfo.gov/
              
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-221 PDF                WASHINGTON : 2019       
       



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
DEB FISCHER, Nebraska                TINA SMITH, Minnesota

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              

                      Wednesday, November 28, 2018

                                                                   Page

Hearing:

Nominations of Mindy Brashears, of Texas, to be Under Secretary 
  for Food Safety, Naomi C. Earp, of Maryland, to be an Assistant 
  Secretary, and Scott Hutchins, of Indiana, to be Under 
  Secretary for Research, Education, and Economics, all of the 
  Department of Agriculture......................................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                               WITNESSES

Brashears, Mindy, of Texas, to be Under Secretary of Agriculture 
  for Food Safety................................................     5
Earp, C. Naomi, of Maryland, to be an Assistant Secretary of 
  Agriculture for Civil Rights...................................     7
Hutchins, Scott, of Indiana, to be Under Secretary of Agriculture 
  for Research, Education, and Economics.........................     9
                              ----------                              

                                APPENDIX

Prepared Statements:
    Brashears, Mindy.............................................    32
    Earp, C. Naomi...............................................    34
    Hutchins, Scott..............................................    37

Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Committee questionnaire, Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report and 5-day letter filed by Mindy Brashears........... 42-79
    Committee questionnaire, Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report and 5-day letter filed by Naomi C. Earp   


    Addendum to Committee questionnaire filed by Naomi C. Earp...    90
    Committee questionnaire, Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report and 5-day letter filed by Scott Hutchins   


    Addendum to Committee questionnaire filed by Scott Hutchins..   118

Question and Answer:
Brashears, Mindy:
    Written response to questions from Hon. Pat Roberts..........   146
    Written response to questions from Hon. Debbie Stabenow......   147
    Written response to questions from Hon. John Thune...........   151
    Written response to questions from Hon. Patrick Leahy........   152
    Written response to questions from Hon. Sherrod Brown........   153
    Written response to questions from Hon. Michael F. Bennet....   154
    Written response to questions from Hon. Kirsten Gillibrand...   154
    Written response to questions from Hon. Robert P. Casey, Jr..   156
    Written response to questions from Hon. Tina Smith...........   157
Earp, C. Naomi:
    Written response to questions from Hon. Pat Roberts..........   159
    Written response to questions from Hon. John Thune...........   159
    Written response to questions from Hon. Patrick Leahy........   160
    Written response to questions from Hon. Debbie Stabenow......   161
    Written response to questions from Hon. Sherrod Brown........   165
    Written response to questions from Hon. Amy Klobuchar........   166
    Written response to questions from Hon. Michael F. Bennet....   166
    Written response to questions from Hon. Kirsten Gillibrand...   167
    Written response to questions from Hon. Tina Smith...........   168
Hutchins, Scott:
    Written response to questions from Hon. Pat Roberts..........   169
    Written response to questions from Hon. Debbie Stabenow......   171
    Written response to questions from Hon. John Thune...........   177
    Written response to questions from Hon. Patrick Leahy........   178
    Written response to questions from Hon. Sherrod Brown........   184
    Written response to questions from Hon. Michael F. Bennet....   185
    Written response to questions from Hon. Kirsten Gillibrand...   186
    Written response to questions from Hon. Tina Smith...........   188

 
   NOMINATIONS OF MINDY BRASHEARS, NAOMI C. EARP, AND SCOTT HUTCHINS

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2018

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Hoeven, Ernst, Grassley, Thune, Daines, Perdue, Fischer, 
Stabenow, Brown, Klobuchar, Bennet, Gillibrand, Donnelly, 
Casey, and Smith.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I call this hearing of the Senate 
Agriculture, Nutrition, and Forestry Committee to order. I 
thank my colleagues for joining me in reviewing the nominations 
of the individuals before us: Dr. Mindy Brashears, of Texas, 
for the position of Under Secretary for Food Safety, an 
extremely important position; Ms. Naomi Earp, of Virginia, for 
the position of Assistant Secretary of Agriculture for Civil 
Rights, who has a great deal of experience in this regard; and 
Dr. Scott Hutchins, of Indiana, for the position of Under 
Secretary for Research, Education, and Economics, all three 
very important.
    Secretary Perdue, his team across the Department's 29 
agencies and offices and nearly 100,000 employees have been 
working hard on behalf of American farmers, ranchers, 
consumers, and businesses that rely on their services. However, 
these very important missions will be even better served with 
the necessary key leadership in place. I could say ``finally'' 
about three times to emphasize that.
    The position of Under Secretary for Food Safety, to which 
Dr. Brashears has been nominated, oversees the Food Safety 
Inspection Service, or FSIS. This Under Secretary is tasked 
with ensuring the safety and the wholesomeness of meat, 
poultry, catfish, and egg products that households all around 
the world prepare for their families. If confirmed to this 
position, the doctor will lead the Federal inspection 
responsibilities at more than 6,000 meat and poultry processing 
plants in the United States and its territories.
    The position of Assistant Secretary for Civil Rights, to 
which Ms. Earp has been nominated, leads the Department of 
Agriculture Civil Rights programs, including matters related to 
program delivery, compliance, and equal employment opportunity. 
If confirmed to this position, Ms. Earp will be responsible for 
the leadership, coordination and direction of the numerous 
division and offices at the USDA that ensure the fair and 
equitable treatment of both customers and employees.
    Finally, the position of Under Secretary of Research, 
Education, and Economics, to which Dr. Scott Hutchins has been 
nominated, leads the critical agriculture research mission of 
the Department. This position serves as the Chief Scientist of 
the USDA and is responsible for the coordination of research, 
education, and extension activities, including the Agricultural 
Research Service, or the ARS, of the National Institute for 
Food and Agriculture. The acronym for that is ``NIFA.''
    Each of these positions requires unique qualification and 
experience to best serve their individual mission areas. There 
is no shortage of experience on this panel of nominees, and I 
look forward to hearing more detail about how they would lead 
their respective agencies and handle these responsibilities.
    All of these positions require an unwavering dedication and 
commitment to serve constituents--our farmers, our ranchers, 
our growers, our consumers, businesses, and employees that are 
impacted on a daily basis by decisions made at the Department 
of Agriculture.
    I am pleased the Committee is considering your nominations 
today. It is my hope we approve your nominations as quickly as 
possible so we can send them to the full Senate for 
consideration. I look forward to your testimony and I now turn 
to my distinguished colleague, Senator Stabenow, for your 
opening remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, and 
welcome to each of you. Mr. Chairman, as we near the end of the 
Congress I am pleased that you and I have been able to 
continue, along with the Committee, in a bipartisan tradition, 
and I know that will continue into the next year as well. 
Working side-by-side, we wrote a strong bipartisan Senate Farm 
Bill that passed 86-11. As you indicated, it would have been 88 
if two more Senators had been present, and it was the largest 
vote in history. We are very close to reaching agreement on a 
final bill and want to thank you for your leadership and to all 
the Committee for their involvement in this.
    In addition to all the work we have done on the Farm Bill 
this Congress, our Committee has also advanced 11 nominees for 
important leadership positions that serve our farmers and 
families, and today we are here to consider three more 
nominees. Dr. Brashears, Ms. Earp, and Dr. Hutchins, thank you 
again for being here. All of you have been selected to fill 
very different but incredibly important positions at the USDA.
    In Michigan, agriculture is our second-largest industry, 
supporting one in four jobs. The root of that success is thanks 
to the science that informs our farmers on growing the food 
that is on our plates. Groundbreaking agricultural research 
happens every day at the USDA and at our land-grant 
universities, including my alma mater, Michigan State 
University. In fact, every dollar invested in agricultural 
research returns over $20 to our economy.
    Michigan State-led research has directly strengthened 
Michigan's agricultural economy as well as the economy across 
the country, through studies that have improved many different 
production and disease and pest challenges, including blueberry 
production and addressing invasive cherry tree pests, as well 
as many, many more. From helping our farmers to be more 
productive to protecting our food systems from emerging threats 
like climate change, scientific research is key to the success 
of American agriculture. That is why it is absolutely critical 
that the USDA leadership protects scientific integrity and 
continues its strong investment in cutting-edge research.
    In addition to using science to help our farmers, the 
Department also uses science to ensure the safety of the food 
that we eat. Through vigorous inspection, testing, and 
outreach, USDA Food Safety Inspection Service works hard to 
prevent foodborne illnesses and protect our food supply. 
Families should never have to think twice about whether the 
food they buy is safe to serve. Every food safety decision must 
be made transparently and objectively so that we can continue 
to earn the trust of our consumers.
    In order for the USDA to successfully carry out this 
important work, every single employee and customer must be 
treated fairly, with dignity and respect. It is no secret that 
the USDA has had a troubled history when it comes to civil 
rights. As the arbiter of equal opportunity across the 
Department, the Office of the Assistant Secretary for Civil 
Rights must do everything in its power to build a culture of 
inclusion. Given USDA's challenging past, it is important to 
continue to correct mistakes, increase representation, and 
improve accountability.
    The roles you have been nominated to fill are fundamental 
to upholding integrity and fostering trust in the Department. I 
look forward to learning more about your plans and vision 
today. Thank you.
    Chairman Roberts. Before I introduce the nominees 
testifying before the Committee today I would like to recognize 
a very important role right behind the nominees. These are the 
family members and associates of our nominees who are here to 
lend their support. If you would all please stand and be 
recognized, we would like to welcome you to the Committee. 
Thank you.
    [Applause.]
    Chairman Roberts. Our first witness is Dr. Mindy Brashears. 
She is a Professor of Food Science and Director of the 
International Center for Food Industry Excellence at Texas Tech 
University in Lubbock, Texas.
    What was the score of that K State game?
    [Laughter.]
    Dr. Brashears. I do not want to talk about that today. I 
will say that when it happened I will tell my husband it would 
put me on better ground with you today. Texas Tech was not on 
top.
    Chairman Roberts. Dr. Brashears' 20-year career as a food 
scientist began at the University of Nebraska where she was an 
Extension Food Safety Specialist and an Assistant Professor. 
The research recommendations and technology she has developed 
have been adopted in the United States processing plants and 
farms to improve the safety of our food supply. She has also 
collaborated with producers in South America and the Caribbean 
to improve food safety systems there.
    I do not have enough time to mention--we do not have enough 
time to mention all of the awards and acknowledgements Dr. 
Brashears has received for her work to improve the safety of 
food consumed by households all around the world, but take my 
word for it, they are numerous.
    Dr. Brashears holds a bachelor's degree in food technology 
from Texas Tech and master's and Ph.D. degrees in food 
microbiology from Oklahoma State University. Mindy and her 
husband, Todd, have two daughters, Reagan and Bailey. Welcome, 
Mindy. I look forward to your testimony.
    Our second witness is Ms. Naomi Earp, of Virginia. She has 
been nominated to be the Assistant Secretary of Agriculture for 
Civil Rights. Ms. Earp is a seasoned civil servant who retired 
with more than 20 years of experience in Federal equal 
opportunity policy, charge processing, and complaint handling 
and employment law.
    Born and raised in Newport News, Ms. Earp received her B.S. 
degree in social work from Norfolk State University, her 
master's from Indiana University, and her J.D. degree from the 
Catholic University of America, Columbus School of Law.
    She entered the Federal service as a GS-9 careerist, and 
she worked her way to the Senior Executive Service prior to 
appointments as Chair and Vice Chair of the U.S. Equal 
Employment Opportunity Commission under President George W. 
Bush. Specifically, Ms. Earp served as the Executive Director 
of the Equal Opportunity and Diversity Office of the National 
Institute of Health from September '94 to June 2003. In June 
2003, she was appointed Vice Chair of the Equal Employment 
Opportunity Commission where she rose to be the Chairman--
Chairperson, pardon me--and served through June 2009. At that 
point she began as the Executive Director of the Opportunity 
Inclusiveness Compliance Office of the Library of Congress, 
where she served until 2011.
    Naomi, we welcome you. I look forward to your testimony.
    Dr. Scott Hutchins has held a variety of roles in the 
agriculture research and development field, most recently as 
the Global Research and Development Leader for Corteva 
Agriculture Science and the Agriculture Division of Dow-DuPont. 
His research and publications have focused on the science of 
entomology and related issues. He has also served as an Adjunct 
Professor in the Entomology Department at the University of 
Nebraska since 1997.
    He had no decisionmaking at all with the decision by the 
University of Nebraska to leave the Big 10--or go to the Big 10 
and leave the Big 12. We will not go into that. He was not part 
of that decision.
    Dr. Hutchins received his bachelor's degree in entomology 
from Auburn University, a master's degree from Mississippi 
State University, and his doctorate from Iowa State University. 
He is married. He has three children and seven grandchildren. 
So do I, by the way.
    Welcome, Scott. I look forward to your testimony.
    Mindy, you are up.
    Dr. Brashears. Thank you very much.
    Chairman Roberts. Hold on a minute.
    Dr. Brashears. Oh.
    Chairman Roberts. There is something called an oath, and if 
you would all rise and raise your right hand please. Well, you 
have to stand. I am sorry.
    As is the tradition and custom of the Committee, before 
nominees or witnesses are to provide testimony I need to 
administer the oath. If all of you could please stand, raise 
your right hands.
    First, do you swear that the testimony you are about to 
present is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Dr. Brashears. Yes.
    Ms. Earp. Yes.
    Dr. Hutchins. Yes.
    Chairman Roberts. And second----
    Senator Grassley. The Chairman is supposed to stand too.
    [Speaking off microphone.]
    Chairman Roberts. What is he complaining about now?
    Senator Stabenow. He said you are supposed to stand.
    Chairman Roberts. Oh, I am?
    [Speaking off microphone.]
    Chairman Roberts. Breaking new precedent, I choose to sit.
    Second, do you agree that if confirmed you will appear 
before any duly constituted committee of Congress if asked to 
appear?
    Dr. Brashears. Yes.
    Ms. Earp. Yes.
    Dr. Hutchins. Yes.
    Chairman Roberts. Thank you. We look forward to your 
testimony. Mindy, you are now up and official.

 STATEMENT OF MINDY BRASHEARS, OF TEXAS, NOMINATED TO BE UNDER 
            SECRETARY OF AGRICULTURE FOR FOOD SAFETY

    Dr. Brashears. Thank you. Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee, I thank you for 
inviting me here today to testify before you. I am honored to 
be nominated by President Trump and for the support of 
Secretary Perdue to be considered for the position of Under 
Secretary of Agriculture for Food Safety.
    If I am so honored to be confirmed by the Senate, it will 
be my pleasure to serve the citizens of the United States by 
providing a safe food supply through my leadership in this 
position with the Food Safety and Inspection Service. FSIS and 
I hold the same vision statement, ``Everyone's food is safe.'' 
My education and experience, combined with my family and my 
faith, have all played integral roles in my preparation for 
this position.
    I am honored that my parents, Gary and Becky Hardcastle, 
are here today to support me. Growing up on a farm in Wheeler, 
Texas, prepared me for a life in the agriculture industry. 
Driving a tractor, hauling hay, and raising livestock built my 
work ethic, my character, and perseverance at an early age.
    I married my high school sweetheart, Todd Brashears, who I 
met while showing lambs at the Houston Livestock Show and 
Rodeo. We recently celebrated 29 years of marriage and have 
been blessed by our three daughters, Bailey, Reagan, and 
Presley.
    Being a mother prepared me in a very unique way for this 
position by making food safety a personal mission. Many young 
lives have been lost due to foodborne illnesses and each time I 
hear a parent speak about a loss, it reaffirms my dedication to 
protecting our food supply.
    After completing my B.S. at Texas Tech, and my M.S. and 
Ph.D. at Oklahoma State, I began my professional career at the 
University of Nebraska as an Assistant Professor of Food 
Safety. The first day of my job, August 13, 1997, coincided 
with the largest recall of ground beef in U.S. history, at the 
time, due to E. coli O157:H7 contamination. This Nebraska-based 
processing facility from which the outbreak originated 
eventually closed, but interacting with industry, media and 
consumers during this crisis equipped me to assist other 
processors to improve their food safety systems. These actions 
set my career on the path of providing educational 
opportunities and focused research to help prevent foodborne 
illnesses from occurring.
    Additionally, in January 1998, new FSIS regulations were 
implemented. My extension role sent me to many small and very 
small processing plants to train them in basic food safety, 
sanitation, and HACCP. I provided the scientific link between 
the industry and the new regulations.
    After 4 years, I had the opportunity to return to Texas 
Tech to serve on the faculty and at the same time was named the 
Director of the International Center for Food Industry 
Excellence where I managed budgets, built research teams, and 
sharpened my leadership skills. I grew as a scientist during 
this time, conducting research to develop pre-and post-harvest 
technologies that make our food supply safer and to study the 
emergence of antibiotic resistance in food systems.
    I have dedicated my career to protecting the food supply by 
studying control mechanisms for foodborne pathogens, especially 
Salmonella, Shiga toxin-producing E. coli and Listeria 
monocytogenes in meat and poultry products.
    In the role as Under Secretary, if I am confirmed, I plan 
to take my scientific expertise and my experience in problem-
solving to make sound data-driven decisions while working with 
our current leadership team to protect public health. I look 
forward to focusing on modernizing our systems with an emphasis 
on issues which pose significant public health threats such as 
the emergence of antibiotic resistance and evaluation of new 
and emerging products and technologies. I will work diligently 
to recruit, retain, and educate our inspectors to implement 
regulations to ensure food safety and public health.
    In the past few weeks there have been multiple outbreaks 
associated with meat and poultry products. There will always be 
improvements that can be made in our system to protect the 
consumer. We are all consumers as are our children, our 
parents, and our friends, and I can use my scientific skills to 
inform regulatory decisions to prevent and respond to future 
outbreaks.
    Last, but the most important thing in my life is my faith 
in God. I want to thank Him for my family, my education, and 
experiences, and this opportunity that has been placed before 
me. Through my faith I will gain the wisdom I need to make 
sound decisions in this position.
    Committee members, I appreciate the time you have taken to 
be here today. I am humbled by the nomination and I would be 
honored to serve as your Under Secretary overseeing food safety 
if I am so honored to be confirmed.
    Thank you again. I look forward to your questions.

    [The prepared statement of Dr. Brashears can be found on 
page 32 in the appendix.]

    Chairman Roberts. Naomi? Ms. Earp?

  STATEMENT OF NAOMI C. EARP, OF MARYLAND, NOMINATED TO BE AN 
      ASSISTANT SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS

    Ms. Earp. Good morning. Chairman Roberts, Ranking Member 
Stabenow, members of the Committee, it is an honor to sit 
before you today. I am proud President Trump nominated me to 
the position of Assistant Secretary for Civil Rights at USDA 
and I am humbled by Secretary Perdue's faith in me. As I sit 
here with members of my family present, we are in awe because 
there is nothing in our lives that could orchestrate this 
outcome but God, and I give Him all the praise.
    My mother and I share the name, Naomi. Both of our birth 
certificates say we are just ``colored girls'' born in Newport 
News, Virginia. We have spent our lives proving that people are 
so much more than limited, frozen-in-time labels. My mom was my 
first hero and mentor. She taught me self-discipline, never to 
settle, to keep my eyes on the prize. I am the first of 13 
children. I do not know but I think I must have been a really 
great kid because my mom kept trying to replicate me.
    [Laughter.]
    Ms. Earp. My mother and I shared responsibility for our 
family. As a practical matter, she became the father and I 
became the mother. I loved school. My all-black high school was 
a sanctuary. Despite segregation, the black teachers and 
administrators pushed us. The black educators challenged us to 
work twice as hard as our white contemporaries and to make a 
positive contribution to the black community, no matter how 
small that contribution may be.
    As I was discovering my place in the world, my mother was 
discovering President Johnson's War on Poverty. Mom took 
advantage of every job-related, educational, economic 
opportunity that was offered. She went back to school, trained 
as an OB/GYN technician, and she bought a home. Both my mother 
and I graduated in 1972, I from college and mom from high 
school.
    During graduate school I was hired as a Civil Rights 
Specialist for the minority set-aside program in the Department 
of Commerce. That 10 percent set-aside program was both the 
start of my Federal career and a long and passionate love 
affair with equal opportunity and civil rights matters.
    If confirmed, I will bring a record of achievement forged 
in several Federal agency cultures: large, small, 
geographically dispersed, single location, bureaucratically 
complex, and straightforward. Programs I conceived and 
shepherded years ago are still viable because of strategic 
alliances and the hard work of changing minds and business 
processes. The saying is, ``If you build it, they will come.'' 
I say, if you build it right, it will be embraced and 
contribute to systemic change.
    In 2012, I went to work in Memphis. I wanted, in some small 
way, to contribute to the legacy of Dr. King. My time there 
gave me an opportunity to meet some of the very same sanitation 
workers that marched with Dr. King.
    The visit to Memphis, lasting 4 years, also underscored for 
me how much more work needs to be done if we are to have a 
color-blind society that judges us on the content of our 
character. I have worked for this all my life and it is what 
brings me before you today, seeking confirmation.
    I believe that the Federal workplace can be a kind of 
``promised land.'' We can do what is right by our customers and 
our employees. I will aggressively, if confirmed, continue to 
work to make sure minority and small farmers have access to 
USDA programs and services. I would like to see more technical 
assistance for underserved populations.
    Should I be confirmed, I plan to specifically target 
harassment and retaliation issues with new approaches to 
training and strict accountability. Finally, if confirmed, I 
will enforce the Secretary's zero-tolerance for discrimination 
with strict accountability.
    I want to do a shout-out to my 11-year-old niece, Reagann, 
who is getting her first introduction to the legislative 
process, and I would like to say, again, thank you, Mr. 
Chairman, Ranking Member, and members of the Committee. I look 
forward to answering your questions.

    [The prepared statement of Ms. Earp can be found on page 34 
in the appendix.]

    Chairman Roberts. You have quite a story to tell and you 
have a great legacy.
    Ms. Earp. Thank you. It is all her.
    Chairman Roberts. Reagann? Hi, Mom. Where is Reagann? Can 
Reagann stand up? Very cool.
    [Applause.]
    Chairman Roberts. Mr. Boozman is not here, Reagann, if you 
want to come up here and sit in his chair.
    [Laughter.]
    Chairman Roberts. I am serious. Come on up if you would 
like.
    [Applause.]
    Chairman Roberts. Do not sit on that side. Sit on this 
side.
    [Laughter.]
    Chairman Roberts. I mean, a man has got to do what he has 
got to do. Sit right there, Reagann. How are you today? It is 
good to see you. Thank you. What a charming young lady.
    Senator Brown. It is an upgrade.
    Chairman Roberts. Yes. It is an upgrade.
    [Laughter.]
    Chairman Roberts. Senator Brown would have said that, if 
anybody sat over here. Whatever. Okay, Scott. Top that.

STATEMENT OF SCOTT HUTCHINS, OF INDIANA, TO BE UNDER SECRETARY 
     OF AGRICULTURE FOR RESEARCH, EDUCATION, AND ECONOMICS

    Dr. Hutchins. There is your first lesson, Reagann. 
Excellent.
    Well, good morning. Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee, I am pleased to appear 
before you today as President Trump's nominee to the position 
of Under Secretary for Research, Education, and Economics 
within the U.S. Department of Agriculture. I would like to 
thank President Trump for this opportunity and Secretary Perdue 
for his confidence and support.
    I am myself a product of the U.S. Land Grant System and 
therefore feel a great sense of honor and pride to be 
considered for this position and, if confirmed, will dedicate 
myself to fulfill the mission as outlined by Congress and 
achieve the goals of USDA as outlined by Secretary Perdue.
    I would also like to thank my family here with me today. My 
wife, Jan Hutchins from Alabama, who has been a supportive life 
partner for over 38 years. We have three wonderful children and 
seven grandchildren that are our pride and joy. My sisters, 
Dawn Skelley and Candy Kellner from Georgia, who are incredibly 
supportive siblings--we shared amazing parents, Cecil and 
Robbie Hutchins, who have passed on, but are here with us here 
today in spirit.
    My cousin Randy Pfaff from North Carolina, a U.S. Army 
Veteran and retired fire fighter; we travel each year on 
motorcycle vacations with our spouses and, in fact, have 
enjoyed riding in many of the great States represented by this 
Committee.
    Throughout my career, I have dedicated my professional 
contributions to developing innovations and novel technologies 
in support of agricultural production, including organic 
production, working every day to provide tools that allow 
farmers to not only succeed in their businesses, but to do so 
with a progressively smaller footprint to the environment.
    For example, I was the Global Product Development Manager 
for spinosad in the late 1990's, a naturally derived insect 
management tool that is today the most widely used insect 
management tool in organic agriculture within the United 
States.
    My journey as a scientist began at Auburn University in the 
late 1970s where I benefited from excellent teachers and 
mentors in agricultural entomology and became passionate about 
helping growers manage devastating pest problems.
    One formative experience, as a Cotton Scout in central 
Alabama in 1980, I saw the real world in living color, 
devastating crop losses from the cotton boll weevil, with 
extensive chemical control necessary that subsequently 
``released'' several additional species, creating a pesticide 
treadmill. If you compare that reality of that 1980 experience 
of cotton production to the systems of today, the boll weevil 
has been largely eradicated due to the great work of the USDA 
and the land-grant research institutions.
    Worm species are controlled via biotechnology-powered host 
plant resistance, and the remaining pests are managed with 
tools that are far less toxic with a smaller environmental 
footprint than their predecessors. I am pleased and proud to 
have contributed in some measure to this progress on 
sustainable agriculture.
    Impacted by this experience, I elected to pursue graduate 
studies at Mississippi State University where I learned the art 
of research and experimental design. I became a student of 
integrated pest management and followed this interest to Iowa 
State University to study under the tutelage of Dr. Larry 
Pedigo, who was a world-renowned pioneer in the field of 
bioeconomics. Through his mentorship, I developed a passion for 
IPM in the context of farm management and elected to also 
pursue a minor in agriculture economics.
    I have been fortunate to have worked closely with numerous 
university teams and administrators throughout my career, along 
with scientific societies to create and advance public-private 
partnerships. Notably, as a member of the Governing Board of 
the Entomological Society of America for 9 years, including as 
president in 2007, I have sought to build consensus on positive 
change while encouraging a culture of inclusivity of all 
members and in planning the future role ESA will play for its 
members. I was deeply honored to have been elected as a Fellow 
of ESA in 2009, the first member with a long career in the 
private sector to receive that honor in over 100 years of 
history of the society.
    If confirmed, I look forward to working with Secretary 
Perdue and his team to fulfill the expectations of Congress and 
the Administration to ensure U.S. agriculture remains the most 
effective, efficient, and sustainable producer of food, feed, 
and fiber in the world. Because any model for sustained 
progress requires a focus on best practices and land 
stewardship, the Land Grant Mission is timeless in not only 
research, but also research-made-relevant through education and 
extension. This includes not only research on the healthy and 
productive use of the land, but on the animal and human 
consumers of these agricultural products.
    I was honored to have met in person the Nobel Laureate Dr. 
Norman Borlaug, who first inspired all of us to fulfill, 
through the Green Revolution, what is now the current mantra of 
USDA and Secretary Perdue, ``Do Right and Feed Everyone.''
    Moreover, if confirmed, I commit to actively work with and 
lead the REE team to address strategic themes outlined by the 
Secretary and Congress. The women and men of the REE agencies 
are truly world class with a tremendous history of impact. My 
goal is to ensure their full potential is realized for the 
continued benefit of U.S. agriculture.
    I have many years of directly applicable experience in 
administering large, complex, and diverse research 
organizations. I also have had unique professional experiences 
through two major mergers with roles in Human Resources, Six 
Sigma Quality Improvement, and numerous program and portfolio 
management assignments that I believe will prove useful to USDA 
if confirmed by the Senate.
    Mr. Chairman, Ranking Member Stabenow, members of the 
Committee, I am truly honored to have been nominated for this 
critical role in USDA, and, if confirmed, I pledge to do all I 
can each and every day to expand the long term competitiveness 
and sustainability of U.S. agriculture and further develop the 
framework and capabilities of REE scientists and professionals.
    In closing, I would like to thank you for allowing me the 
privilege of appearing in front of the Committee today and I 
look forward to answering any questions.

    [The prepared statement of Dr. Hutchins can be found on 
page 37 in the appendix.]

    Chairman Roberts. Thank you, Doctor.
    Dr. Brashears, the Under Secretary for Food Safety holds an 
important position as the U.S. Codex Office Policy Committee 
Chair as well. At the last year, the Codex office was housed at 
the Food Safety Inspection Service and it was recently moved to 
the Trade and Foreign Agricultural Affairs mission area. How do 
you envision carrying out this responsibility in coordination 
with that mission area and what role do you envision for the 
United States with our international partners in Codex?
    Dr. Brashears. Thank you, Mr. Chairman, for that question. 
Through my international research I have seen first-hand that 
food safety can definitely impact trade, so I am in support of 
these two entities working together. If I am confirmed I do 
look forward to working with our trade and marketing group at 
the USDA to serve as the Policy Committee chair for Codex.
    We will use science and data to work in collaboration with 
our counterparts across the globe to develop international 
policies that ensure that our food is safe and that it can be 
traded. I am excited for the opportunity to do this. I think my 
experience and background have prepared me for this role, and I 
look forward to serving in that capacity if I am confirmed. 
Thank you.
    Chairman Roberts. Reagann, do you have any questions for 
Ms. Earp, who is sitting directly--you do not have any 
questions for her?
    Ms. Davis. No.
    Chairman Roberts. Okay. Do you have a preference? Would you 
like to still sit up here or would you like to go back to your 
seat?
    Ms. Davis. I am going to sit up here.
    Chairman Roberts. You are going to sit up here.
    [Laughter.]
    Senator Donnelly. I think you look very good up there.
    Senator Stabenow. She is coming for your gavel.
    [Laughter.]
    Senator Ernst.
    [Speaking off microphone.]
    Chairman Roberts. All right. We will settle down now here, 
before we have a revolution on our hands.
    Ms. Earp, if confirmed, the office that you will be leading 
is obviously a very high-profile position and it will certainly 
spearhead effective leadership with the Department on these 
issues. What measures will you take to buildupon steps taken by 
the USDA to ensure civil rights issues continue to improve 
throughout the Department? You touched on this in your opening 
statement, so you can make this as short or as long as you 
would like.
    Ms. Earp. Thank you, Mr. Chairman. I would make it short 
and focused on two things. On the employment side of the house, 
the Title VII side, I am keenly aware that harassment and 
retaliation is a priority. Discrimination against women and the 
issues that we face in Forest Service have gone on too long. On 
that front, I would like to engage the Equal Employment 
Opportunity Commission and the Office of the Secretary, to see 
if we can have a pilot or an initiative to expedite complaints 
of sexual harassment, that we can triage them in a way to 
separate sexual assault from the silliness of the process that 
goes on as a part of harassment.
    On the minority farmer, female rancher, new entrants into 
farm, the Title VI side of the house, if confirmed I would like 
to focus on access. USDA is huge, it is complex, and I think 
that there is a link between understanding and access to our 
programs and services. I would like to, in an oversight 
position, work with the mission areas to see if we cannot 
figure out what that link is in terms of preventing land loss.
    So, in a nutshell, those would be my two priorities, if 
confirmed.
    Chairman Roberts. I appreciate that very much. Thank you 
for your response.
    Dr. Hutchins, the Department recently undertook a 
realignment and relocation effort that would move the ERS under 
the Office of the Chief Economist and physically relocate ERS 
and NIFA out of the National Capital region and closer to 
agriculture producers. If confirmed, you will be responsible 
for ensuring the research, education, and economic function of 
the Department will continue without any interruption.
    What is your philosophy on managing change and 
organizational structure? How will you ensure that the 
consistency and integrity of these agencies will continue 
throughout a period of potential transition?
    Dr. Hutchins. Thank you, Mr. Chairman, for the question. I 
have not been briefed by USDA or those participating with this, 
at this point in time, on activities already in place, and the 
actions that I am sure are being well considered. I will 
assume, of course, that the logistical challenges have been 
discussed.
    What I would emphasize, from a personal philosophy 
standpoint, is that the details matter, and developing how the 
transitions would be made, developing a rationale on the core 
functions and capabilities and individuals that would remain in 
the Washington, DC. area in order to ensure that the 
collaborations with the other agencies, that the science 
remains strong and is not affected by the administrative 
aspects of this would be important.
    I think the experience that I have had, sir, in mergers, 
where I have been in positions to close facilities, to open 
facilities, to merge activities, and to develop organizational 
design will serve me well in helping support whatever actions 
ultimately do occur. My time in human resources and with those 
Six Sigma tools, I think, will be useful to the administration 
and to Congress in ensuring that the science is not affected 
with these particular moves. I look forward to the opportunity 
of focusing on this, if confirmed.
    Chairman Roberts. Doctor, as I had brought up in our 
meeting a few weeks ago, the success of the National Bio and 
Agro-Defense facility, called NBAF, in Manhattan, Kansas--home 
of the ever-optimistic and fighting Wildcats, despite our 
season--is a top priority for me. I have a question with 
regards to the plan in the President's Fiscal Year 2019 budget 
request to transfer the operational responsibility of NBAF. 
However, I will enter that question in the record and look 
forward to your response in writing.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman, and welcome 
again to each of you.
    I wanted to followup, Ms. Earp, on something that you 
indicated, you said a few minutes ago, that I just wanted you 
to clarify. You had said you want to separate sexual assault 
from the silliness of sexual harassment. Could you talk a 
little bit more about what that means?
    Ms. Earp. Thank you. Yes, ma'am, for that question. I 
probably should not have described sexual harassment as 
``silliness,'' although it is on a continuum. What I was 
referring to, sexual assault that we have seen, in some cases, 
is a criminal matter. It needs to be investigated, expedited, 
handled quickly. Sexual harassment that falls short of assault, 
the kind of bullying and coarse language and photographs and 
those kinds of things, I think that to handle all of the 
complaints that come forward we really could have two tracks to 
expedite things and speedily get them into a right track for 
processing.
    Senator Stabenow. I understand the difference in what you 
are talking about, but, for instance, in the Forestry Service 
we have had a culture of sexual harassment and inappropriate 
behavior and bullying and so on. So you consider that less 
serious? I mean, for the people that are working there, this 
has been a very serious concern in terms of their capacity to, 
as professionals, be able to do their job.
    Ms. Earp. No, I do not consider it less serious. I consider 
harassment and retaliation, which often follows employees who 
complain about sexual harassment, so significant because it 
chills the very workplace. It chills the environment. If I am 
confirmed, one of the things that I would like to do with the 
Forest Service is get an assessment of the crew culture, the 
very lowest level in the Forest Service where firefighters are 
working together, to look at the behavior, to look at the 
social norms, to look at how employees interact, and then 
proceed with training to address that. I think it is all very 
serious. That is why my priority would be harassment and 
retaliation.
    Senator Stabenow. Thank you. The USDA has a long, troubled 
history of serious civil rights violations, as you know. In 
recent years, the USDA has settled several very large civil 
rights lawsuits, paying out billions of dollars in settlements.
    You were working on civil rights issues at the USDA during 
some of the time, when the wrongful behavior was occurring in 
some of the lawsuits. What do you think contributed to the 
unlawful behavior at USDA that was alleged in the lawsuits and 
how would you work to make sure USDA is not involved in that 
type of discriminatory behavior again?
    Ms. Earp. There has been change, despite the challenges 
that remain. In 1987 to 1990, when I worked for the Department 
of Agriculture, my priorities were affirmative action and 
disparate treatment--disparate treatment in looking 
specifically at black farmers, affirmative action in looking 
specifically at the underrepresentation of women in the 
firefighter job series. Today, some 25, 30 years later, we have 
women represented but we have a culture that has them both 
excluded and conspicuous as members of that force.
    On the disparate treatment side, I did not see, between 
1987 and 1990, the trends that would lead to the major cases 
that you speak of, partly because we were looking at individual 
farmers and their complaints, partly because there was not the 
kind of data transparency that would be needed to spot the kind 
of trends and put in place systemic remedies.
    I feel like some business is unfinished, so if I am 
confirmed I will be working very hard to address the issues as 
they exist today, and not as I saw them 20, 25 years ago.
    Senator Stabenow. Thank you.
    Dr. Hutchins, in August, Secretary Perdue outlined his 
research reorganization plan, which would move the Economic 
Research Service into the Office of the Chief Economist and the 
Office of the Secretary, and would relocate the over 700 
Economic Research Service and National Institute for Food and 
Agriculture employees away from the Capital region. What are 
your thoughts on the proposal and if the agencies are indeed 
moved, what steps would you implement to ensure that this 
reorganization would not come at the expense of the USDA's 
world-class agriculture and economic research capacity?
    Dr. Hutchins. Thank you, Senator, for the question. As I 
indicated earlier, what I know about the moves, in terms of 
details, is what I have read in the public press, but what I 
have seen is that the goals of the Secretary, I think, are the 
right goals, to be effective, efficient, customer-focused.
    Having said that, those agencies provide a very valuable 
and critical service and role to U.S. agriculture, as you 
indicated, so my priority, if confirmed, would be to ensure, 
just as you have indicated, that the science is not affected, 
that the collaborative spirit that those agencies currently 
have is not affected, and that we are able to maintain, over a 
long kind of multigenerational approach, transformative 
approach, any transitions that do happen outside of Washington, 
DC, do not happen at the loss or at the sacrifice of the 
quality of the science, or the independence, if you want to 
think of it that way, of the economic assessments that ERS 
would perform.
    So that would be my commitment to this Committee.
    Senator Stabenow. Well, that is critically important, as 
you know, given the importance of these functions.
    Given your extensive career in the private sector--and you 
and I have talked about this--how would you address concerns 
that you may prioritize research efforts that support industry 
over the interests of farmers, farm workers, or the 
environment?
    Dr. Hutchins. Thank you very much for the question. So my 
focus, for my career, prior to retirement, has been always 
innovation, and innovation is in multiple areas of technology 
and multiple areas of focus. So what I am very proud about, as 
an entomologist working in the private sector, is the ability 
for us to have developed, and the industry, actually, to have 
developed some really progressive solutions, some of which I 
have mentioned. Others in the area of urban pest management 
with termite baiting would be examples. Technologies are now 
being driven through biotechnology, those kinds of things.
    What I would just remind everyone, if you think about the 
technology, it has its own lifecycle. So we move, over time, 
with progress. So the most important aspect of research, and 
what it can do for agriculture, is to help us move to the next 
generation and the next generation. I think the public sector 
and the private sector do need to be partners in that, and the 
public sector plays a very vital role in that aspect. The 
private sector plays a role as well. The two have some 
overlapping aspects, in terms of making sure that we are all 
focused on the customer and on U.S. agriculture, but they also 
have some independent areas, and so certainly there would be no 
crossing of those areas that are independent.
    Senator Stabenow. Thank you. Dr. Brashears, consumer demand 
continues to increase for locally grown and processed meat and 
poultry. However, many local food producers and small farmers 
have difficulty finding slaughter and processing facilities 
that can accommodate smaller-scale operations. Some States have 
turned to State meat inspection as an alternative to finding 
Federal inspectors to fill their facilities due to limited 
availability of Federal inspection.
    Will you support small plants and the development of local 
meat slaughter and processing facilities, and specifically, can 
you commit to providing sufficient inspectors for mobile 
slaughter units and small processing plants in rural areas?
    Dr. Brashears. Thank you very much for that question. In a 
short answer, yes, but I want to draw on my background and 
experience.
    Much of my work, throughout my career, has been with the 
small and very small processing plants. As I mentioned in my 
opening statement, whenever I began at the University of 
Nebraska it was right on the cusp of when the new FSIS 
regulations came into play and it was the first major change in 
decades. I did not even realize when I moved to Nebraska that 
it was the No. 1 slaughter State. Well, that was not because of 
the large entities that we think about. It was because of the 
small and very small processors.
    So I had the opportunity to serve as their technical 
expert, because I was in an extension role, which is very 
important. So I visited them, I conducted training in HACCP, 
food safety, sanitation. I helped them with HACCP plans. So I 
saw firsthand the need.
    Reading a regulation is overwhelming, and taking a 
regulation into practically applying it in a plant is also 
overwhelming, and we have to be sure to provide the technical 
expertise and the inspectors so these small and very small 
companies can be successful, and I will be committed to doing 
that.
    Senator Stabenow. During your first year on the job, will 
you commit to work with stakeholders to develop an agency 
action plan to support local meat products?
    Dr. Brashears. At this time I am not aware of what is out 
there but I am definitely committed to looking into what the 
agency has, and I am committed to developing action items that 
will support our small and very small processors.
    Senator Stabenow. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, very much. Dr. 
Hutchins, we will start with you. Some of these questions are 
very similar, I think, that all of us were curious about. I am 
going to jump back to relocating, of course, and go Cyclones. 
Thank you very much. I appreciate that.
    Dr. Hutchins, Secretary Perdue has started the process of 
the relocation, as many of us have talked about, of the 
Economic Research Service and the National Institute of Food 
and Agriculture outside of Washington, DC. I am really excited 
about this, because I do have an act that is called the SWAMP 
Act, which would move all of our headquarters of Federal 
agencies outside of the immediate Washington, DC, area. So 
while it does not go quite as far, I am excited about the 
opportunities, and I do think that moving these ag agencies 
outside of the beltway is a good step in the right direction, 
and an example of what I hope other Federal agencies might be 
able to do at some point.
    So I know that you have talked about maintaining the 
quality of research that would be coming out of these agencies. 
We have talked just briefly about land-grant institutions. Can 
you maybe talk a little bit about where we might be able to 
partner, not only with private industry but also with some of 
our land-grant institutions, in perhaps doing research. Would 
that be an opportunity that we would have?
    Dr. Hutchins. Thank you for the question. I think that 
opportunity is really part and parcel of what the mission of 
the Research, Education, and Economics is at its heart. What 
the land-grant system was designed to do was to really focus on 
those key problems. The Agriculture Research Service is a 
world-class organization with a tremendous history, to focus on 
agricultural issues of national importance. So I am not aware 
of any country in the world, and I have traveled to many, that 
have that same kind of capability.
    So my goal would be to utilize that expertise, to work on 
those national issues, and to partner and leverage that 
expertise with the land-grants to work on the ones that are 
more local or regional, and to really strengthen, in doing 
that, in both of those, to make sure that we, you know, focus 
the resources that are best developed for ARS versus NIFA types 
of funding, where they are.
    I think being close and proximal to agriculture is a valued 
trait. I think anything, at the end of the day, could be 
managed, and it has been managed well at NIFA here. We really 
need to focus, in my mind, the effectiveness and efficiency in 
order for the long-term investment we can make and to be able 
to link that to the land-grant institutions.
    Senator Ernst. Very good. I appreciate that very much. We 
are very proud of Iowa State and their ties to agriculture, so 
thank you very much for that.
    Ms. Earp, thank you so much. It is very nice to have all of 
you here, so thank you.
    Ms. Earp, again, going back to the forestry and the Forest 
Service, this is an issue, and I do not know that we can talk 
about it enough. The sexual misconduct and mismanagement, all 
of those allegations that continue to come out by the U.S. 
Forest Service chief is disturbing.
    If you are confirmed, then how can we increase transparency 
and reporting and investigations of misconduct with these types 
of allegations within the USDA? How can we do that so that a 
situation like this does not happen again?
    Ms. Earp. Thank you, Senator. The Forest Service and its 
history is long and complicated. I look forward, though, if 
confirmed, working with the new Forest chief, who is a woman. I 
think that might give us some additional leverage in addressing 
the problem. I would like very much to have a sense of urgency 
and to work in an oversight capacity with the Forest Service to 
identify the culture.
    There are lessons to be learned. Tailhook, from the 
military. Some years ago air traffic control towers were an 
issue for women because it had been predominantly a male area. 
I think that today we can identify some of the risk factors for 
sexual assault and sexual harassment. I am committed to try 
everything possible and to do it with as much deliberate speed 
as the government allows.
    Senator Ernst. Well, I appreciate that very much. It seems 
to be an issue that pops its ugly head up in many of our 
different departments, and we just really have to own this and 
figure out a way to combat it and then to feed it.
    So I appreciate the time that you have given us today. 
Thank you all very much and thank you for your continued 
service.
    Thank you, Mr. Chair.
    Chairman Roberts. We thank you, Senator. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. Thanks for adding 
to the membership of the Committee with real talent.
    [Laughter.]
    Senator Casey. I want to thank our witnesses for being here 
today. I will direct my questions to Dr. Brashears, but for all 
three of the witnesses and the nominees for putting yourself 
forward for public service at a difficult time to do that, and 
also for the commitment that not only you make but that of your 
families as well. We are grateful for that.
    Dr. Brashears, I want to start with--and I mentioned 
earlier, in our discussions before the hearing--I will start 
with salmonella, which is a difficult topic, but you said you 
want to talk about it because of the importance of it. We know 
that last week USDA's Food Safety and Inspection Service posted 
data that showed how individual poultry processing plants 
across the country are doing with respect to controlling the 
levels of salmonella in chicken parts.
    This was the right thing to do and I, and I know many 
others, applaud the agency for taking this step, which provides 
both transparency and can also incentivize improved industry 
performance. I am concerned with what the agency has found, 
which is that some of the largest poultry companies in our 
country are selling products that fail to meet the Food Safety 
and Inspection Service performance standards for chicken parts.
    There have been significant, well-documented foodborne 
illness outbreaks associated with these products, as you know. 
The first question I have is why do you think some 
establishments continue to struggle to control salmonella on 
chicken parts?
    Dr. Brashears. The first thing I want to tell--thank you 
for the question--but the first thing I want to tell you is I 
am also concerned. I mean, this is not something that I think 
is acceptable for our consumers, and we have to take action to 
get these numbers down.
    As I told you, I have spent my career studying salmonella 
and control measures for salmonella. One thing about the 
performance standards is they are a 52-week window, and I am 
optimistic and hopeful now that these processors look at 
specific areas of the plant where there is a problem, and in 
this case in the parts, they know where to take action and make 
changes to get those numbers down. I think, you know, within 
the agency we are going to have to watch those and watch those 
numbers come down as they take action, and that will be a 
commitment of mine. Controlling salmonella, preventing 
outbreaks, and looking at ways to reduce salmonella in our food 
supply is very important to me and it will be a priority for me 
in this job.
    Senator Casey. I appreciate that. I may followup in 
writing, but I will ask you about the steps you can take to 
improve performance of these so-called Category 2 and 3 plants, 
and I will submit that for the record. In order to get my other 
question--and I wanted to also ask you about slaughter and 
processing facilities. One of the concerns I have heard from 
smaller livestock producers in Pennsylvania is that slaughter 
and processing facilities are, unfortunately, few and far 
between. Too often producers have to schedule processing dates 
months in advance and then travel long distances, and we have a 
big State and that is a lot of miles for these folks.
    This is particularly frustrating when there are custom 
slaughter establishments in close proximity that cannot be 
utilized because they lack Federal inspection. It would be 
helpful, from a rural economic development perspective, for 
USDA to help develop a coordinated strategy to improve the 
small and the even very small processing sector, including 
bringing some of these custom plants into the fold so that 
smaller livestock producers have more options.
    If confirmed, is that something you would be willing to 
help us with? I know you addressed part of this with Senator 
Stabenow's question.
    Dr. Brashears. Yes, it is. I grew up in a rural area, and 
actually, my family raises cattle, and we have the same issue. 
If you have an animal you want to have custom harvested then it 
can be very challenging to know where to take it. So just 
personally and from a scientific perspective, to keep our food 
supply safe, I think we need to have better programs so we can 
make sure that all of our food is inspected and processed under 
Federal inspection or the equivalent of it within a State 
entity. So it is very important to me to take action on those 
topics.
    Senator Casey. We look forward to working with you on it.
    Dr. Brashears. Thank you.
    Senator Casey. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Brown.
    Senator Grassley. Thank you all for your public service 
that you have done or will continue to do in a new position.
    A comment I would like to make to you that I would make to 
every Presidential appointed under a Republican or a Democrat 
administration, about the importance of listening to people 
that refer to as whistleblowers, but probably when you first 
come in contact with them they are not whistleblowers. All of 
you are going to be involved with at least hundreds, and maybe 
thousands and maybe, in some cases, tens of thousands of people 
working under you.
    You cannot possibly know what is going on, and with my 
experience with whistleblowers, I have found that almost all of 
them, obviously not every one of them, because some do have an 
ax to grind, but they just want to government to do what 
government is supposed to do, and they want the money spent the 
way that Congress intended it for to spend.
    So I think you ought to give really consideration when you 
hear from people below you that something is wrong, try to 
correct it, so that they do not have to come to Congress, and 
at that point they kind of appear to be treated by the agency 
like a skunk at a picnic. There is a great deal of peer 
pressure to go along, and in each one of your agencies, people 
below you that are responsible for these people or these 
programs, they do not want anybody to make them look bad, and 
sometimes a whistleblower does that. So if you could give them 
some attention I would appreciate it.
    The other thing is in response to the oath that the 
Chairman gives you and the promise that you give to respond to 
oversight requests from Congress, either to appear here or to 
answer the phone calls or to answer our letters, and most of it 
is probably letters, I do not say this because I know any of 
you do not have bad intentions not to do what you say you are 
going to do. I have found that we get this ``yes'' answer, over 
the 38 years that I have been in the Congress, and in the last 
four or 5 years I have advised people that maybe they would be 
better to say ``maybe'' instead of to just say ``yes.'' Because 
we sometimes do not get an answer, or sometimes if you get an 
answer it is an incomplete answer, and then you go back and 
forth and you go back and forth.
    I know that you folks have not maybe experienced that yet 
but I experience it all the day. Two years ago--I cannot give 
you a followup figure but I wrote 555 letters to people like 
you, in your position, in every--probably a lot of agencies of 
government. I am not talking about the USDA, because probably 
few of them went to the USDA. It is just a pain in the butt 
when you do not get a full answer when you first ask it.
    So that would be my advice to you, to carry out what you 
just said you would do, but to understand that my experience 
has been that if it is carried out it is not carried out fully, 
and eventually you get answers, and probably the reason a lot 
of answers do not want to be given is because of the 
embarrassment that comes with it.
    Before I ask the one question that I am going to ask of Ms. 
Earp, I am going to say to you that when you were in my office 
I reminded you of my involvement in trying to get justice for 
black farmers through the Pigford issue, and hopefully that is 
all behind us. If it is not, then I would advise you, like I 
advised our former Iowa Governor, and then later Secretary of 
Agriculture, in the Obama Administration, and we discussed it 
and he did a very good job, I think, of following through on 
all that. If there are any latent things that have not been 
taken care of that I would appreciate your following through on 
that.
    So my one question to you is more from history than it is 
from the immediate problem, but because you have a long and 
distinguished career in civil service, how do you view the 
civil rights challenges facing the Federal Government today 
with those that you dealt with a few decades ago? Are things as 
bad as they were, a little bit improved, or completely 
improved? You do not have to limit yourself to those three 
answers.
    Ms. Earp. Thank you, sir, for that question. I would say 
that my life has been a testament to the improvements. I was 
born a colored girl. Some people may call me African American. 
I choose to identify as black American, bold and proud.
    When I first attempted to enter Federal service you had to 
take a test, and that test was determined to have a disparate 
adverse impact on women and minorities. That test no longer 
exists. Change is not easy. It does not come quick, but it is 
vital. I think that despite the problems we have, tremendous 
progress has been made, and I want to do my part to ensure that 
that continues.
    On a footnote with one of your pet projects, I would just 
say, also to Senator Stabenow, that whistleblowers are 
essential to eradicating a culture of bad behavior, a culture 
of harassment. Bystanders' willingness to see something and say 
something, to have a conversation about how we talk to each 
other, is essential.
    Senator Grassley. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Reagann, Senator Grassley is going to be 
the President pro tempore of the Senate. He is a very important 
Senator right now but he is going to be the President pro 
tempore, and that means he gets to ride in a special car, and 
he has security in front of him, and security in back of him. I 
am not sure how he is going to work out the gasoline mileage 
issue that he focuses on.
    The one thing I noticed, that you were writing down ``skunk 
in a picnic.''
    [Laughter.]
    Chairman Roberts. That is not unusual for the future 
President pro tempore of the Senate.
    Senator Brown.
    Senator Brown. With that introduction, thank you. Thanks, 
Dr. Hutchins. Welcome to all three of you. NIFA is a key 
partner in our Nation's land-grant universities, as you know. I 
am proud to say Ohio has two land-grants, Central State 
University and Ohio State University, and are doing some of the 
most cutting-edge research in the country. Pending your 
confirmation, I would like to personally invite you to both of 
these institutions at some point.
    The 1890 Land Grant plays an important role in promoting 
agricultural research at a number of historically black college 
and universities. In the 2018 Farm Bill, that the Senate 
passed--and I again thank Senators Roberts and Stabenow for 
their persistence on moving forward in a bipartisan way. I 
mean, we passed this bill with 86 votes. The language we wrote 
for the--we strengthened the program, creating new centers of 
excellence and a scholarship program. I would like you to 
commit to this Committee to continue support and advocate for 
strong funding for 1890 Land Grants.
    Dr. Hutchins. Thank you, Senator, for the comment and the 
question. I very much look forward to being briefed on the 1890 
university and the role that they play. I think the purpose is 
outstanding, as well as the 1994 as well. I would look forward 
immediately, if confirmed, to understanding the specifics of 
that. Everything I know about it would tell me that it 
certainly is a commitment that I would be willing to make.
    Senator Brown. Thank you, and just a thanks for that 
answer. Senator Roberts and Senator Stabenow have helped to 
right the wrong for decades with Central States--Central State, 
I am sorry. Central States is the pension issue we are working 
on--but Central State. I so appreciate the work they have done 
and they are continuing to strengthen that.
    Another question for you, Dr. Hutchins. Do you accept the 
science of anthropogenic climate change--human-caused, for 
those of us that cannot say words like anthropogenic as quickly 
as we would like to?
    Dr. Hutchins. Thank you, Senator. I accept the fact that 
climate change is occurring. It has always occurred. So to the 
degree that a large body of work exists that suggests that 
humans are having an impact on acceleration of that change in a 
particular direction, I accept that body of work. There are, of 
course, individuals that have different perspectives and there 
are individuals that, you know, the debate might be about the 
rate and the specifics and the rest of it.
    From a U.S. agricultural standpoint, what I would say is 
two things. One is we can be--agriculture, as a ``we''--can be 
a net partial solution to that, to help sequester the carbon, 
to create the more green, to use best practices that are win-
win for the growers, such as cover crops and conservation 
practices and the rest of it, and at the same time help 
address, in some part, the sequestration.
    The other thing I think that research specifically can do, 
along with education extension, is help U.S. agriculture adapt 
to what is happening. The kinds of breeding techniques that 
exist today with technology and so forth will allow for growers 
to have tools and to have ability to adapt to the kinds of 
things they have. Many of the events are extreme events, and 
difficult to adapt to, but in the bigger picture I think there 
certainly can be a lot of progress to that.
    So I do accept that there is a body of work there and I 
think agriculture can be a very positive force in a healthy 
environment.
    Senator Brown. Thank you. I would have preferred you had 
just said you accept that humans--that much of climate change 
is human caused. I wish you had said that more directly than 
the body of work. I know you know the administration tried to 
bury the National Climate Assessment on the day after 
Thanksgiving. That is sort of what administrations do in 
reports they do not like, that found that climate change 
threatened this report, written by the government, across 13 
agencies, including USDA found that climate change threatens 
our economy and our farms and our forests, and puts tens of 
millions of Americans at risk.
    You are nominated to oversee one of the most pre-eminent 
science agencies in the Federal Government. Do you have any 
reason to doubt this report?
    Dr. Hutchins. I have no reason to doubt the report itself.
    Senator Brown. The President does, if you saw, but you have 
no reason to doubt this report.
    Dr. Hutchins. I believe that the body of work that supports 
that report is genuine, and I think the key part of the report 
is what should we do about it. As I say, I think agriculture 
can play a very positive role, and I think the mission area for 
Research, Education, and Economics can play a very significant 
positive role.
    Senator Brown. Would you answer this question, no matter 
what the President says to attack this report, no matter what 
the President says to undermine this report, you will stick to 
your belief that you have no reason to doubt this report?
    Dr. Hutchins. Senator, what the President says I think 
would be based on some aspect of public policy that he would be 
addressing. From a scientific standpoint----
    Senator Brown. Perhaps.
    Dr. Hutchins [continuing]. --from a scientific standpoint, 
sir, what I would say is that I think that agriculture can tell 
a positive story, and, if confirmed, it would be my pledge to 
make sure that agriculture plays as much of a positive story in 
that as possible.
    Senator Brown. Thank you, and we will count on you on both 
counts. Thanks, Dr. Hutchins.
    Chairman Roberts. Has the Senator concluded?
    Senator Brown. I yield.
    Chairman Roberts. You should know that Reagann is taking 
copious notes.
    Senator Daines.
    Senator Daines. Thank you, Chairman Roberts, Ranking Member 
Stabenow. Thank you to the witnesses for being here today.
    Dr. Brashears, as you know, this year has been an extensive 
debate over which agency, either USDA or FDA, will regulate 
cell-cultured meat products. In fact, just 2 weeks ago the FDA 
and the USDA issued a statement announcing the joint regulation 
of cell-cultured food products. The FDA is going to oversee the 
cell collection, cell banks, cell growth, and differentiation. 
Then the USDA will oversee the production and the labeling of 
these products.
    The question for you is, what difference, do you believe, 
the USDA will anticipate when regulating production of these 
products versus livestock harvested in the more traditional 
manner?
    Dr. Brashears. Thank you very much. That is a great 
question. The No. 1 thing I see as a difference is not starting 
from a live animal. So in this joint statement that the USDA 
and FDA have put out, I really appreciate the approach they 
have taken because the FDA will oversee the cell lines, and 
that draws on their past regulatory oversight of cell-based 
medical technologies. Then once a food product is made it moves 
to USDA and we can draw on the strength of those of the USDA in 
overseeing the actual food itself.
    Now in saying that it is a good start this is, as you know, 
out for public comment, and if I am confirmed I look forward to 
looking at those comments and considering them very carefully 
as we move ahead.
    Also, we have a lot of scientific questions that need to be 
answered. I have extensive experience in evaluating standards 
of identity as well as studying processing systems and 
identifying the hazards in those systems. We do not really 
know, when we scale this up from a lab that is making 
milligrams of product into a large-scale production, what is 
going to happen on the food safety side, and we are going to 
have to be very careful and have strong oversight of that.
    Senator Daines. Thank you. This is important, and Montana 
is a State, we have three cows per person, and we are proud of 
that, Senator Hoeven.
    Related to that, a further issue has arisen in labeling 
products derived from livestock and poultry using animal cell 
culture technology, limiting the terms of ``beef'' and ``meat'' 
to products derived from livestock that have been raised and 
slaughtered in the traditional manner, for example. There have 
been other terms used to label cell-cultured products. I am 
going to use the kinder words here---clean meat, lab-grown 
meat, fake meat. That term has been thrown out there.
    My question for you is how do you believe these products 
should be labeled to properly distinguish them from 
traditionally raised livestock, while still alerting consumers 
of the possible allergens contained in the product?
    Dr. Brashears. Sure. Again, thank you for the question. 
This goes back to the standard-of-identity question. We are 
going to have to spend a lot of time to determine what this 
label needs to be, because we do not have a lot of information 
on the composition and functional properties in different 
aspects, and we are going to have to evaluate that. I can tell 
you that I am committed, as a scientist, to bring my expertise 
to the table to evaluate that, to make sure we have an accurate 
label that conveys the right message to the consumers so they 
know where the product came from, what is the basis of the 
production of this, and that is something I am very committed 
to in this position.
    Senator Daines. Thank you. I wanted to ask a question of 
Ms. Earp, and I was very pleased to meet the next Senator from 
Maryland, your niece Reagann here. She is getting some good 
practice and she is off to a great start. She has a very firm 
handshake and that is something I am going to try to teach my 
children. She has got it. Reagann, welcome to the dais.
    Ms. Earp, thank you for coming here today and thank you for 
bringing Reagann and thank you for your willingness to serve. 
As you know, there has been a history of problems within the 
Forest Service related to harassment, sexual misconduct, and 
retaliation, including instances in Montana.
    My question for you is, do you have a zero-tolerance policy 
for harassment, gender discrimination, and retaliation within 
the USDA and the Forest Service?
    Ms. Earp. Is there such a policy?
    Senator Daines. Would you have a zero-tolerance policy.
    Ms. Earp. Oh, yes. Absolutely. The Secretary currently has 
a zero-tolerance policy on discrimination and I certainly would 
attach myself to that, if confirmed.
    Senator Daines. Thank you. Could you provide a written 
update to my office regarding the steps the Forest Service has 
taken to date to help ensure that the agency has a safe working 
environment? It is a to-do. I am asking as a followup item. We 
would just like to get an update on that, to ensure we do have 
a safe working environment for its employees. I am out of time.
    Ms. Earp. Yes, sir.
    Senator Daines. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all of you, and we are glad to have you here. I am going 
to followup with Dr. Hutchins on some of the questions that 
Senator Brown was asking about climate change. Like everyone 
else, I was alarmed by that report. I specifically would like 
to know what role you think the USDA's Research, Education, and 
Economics mission area has in helping ag producers to adapt to 
this. Also, would you support evidence-based tools that our 
farmers need to be more resilient?
    I know you said it was a positive--talking about being 
positive--I mean, the report was not positive but what we are 
facing in ag country. So what do you think the USDA can do 
about it to help them adapt?
    Dr. Hutchins. Thank you, Senator, for the question. So I 
think there a number of things that could occur, some of which 
in the best practice productivity area. I think I referenced a 
couple of these things, such as cover crops and conservation.
    One of the things the report made mention of as well that 
would be supported long term would be how technologies, whether 
they are driven by public sector or private sector 
partnerships, can help farmers adapt and be part of that as 
well, to ensure that they do not take the brunt of the changes.
    One of the things that, per the report, that will likely 
occur and makes perfect sense to me, as an entomologist, is 
that we will see an increase in pestilence, we will see an 
increase in invasive species, perhaps, or the expansion of 
expansive species ranges. So the USDA can play a very critical 
role, the remission area in particular, in terms of helping us 
predict that, have a handle on that, and help address that 
working partnership with APHIS and other agencies within USDA.
    So I think the agency can play a very critical role in all 
of those aspects.
    Senator Klobuchar. Okay. Thank you. Dr. Brashears, 
foodborne illness, very important in Senator Smith's and my 
State. We also have a lot of research going on there. We were 
hit hard by avian flu, by H1N1, and just by a number of other 
diseases that have come our way. Are there lessons that the 
Food Safety and Inspection Service can take from the outbreaks 
to better regulate the safety of domestic and imported 
products?
    Dr. Brashears. Could you repeat the question?
    Senator Klobuchar. I am just asking about--I am mentioning 
that these have affected us greatly, and just talking about 
some of the diseases we have seen with animals, but also what 
we have seen with products, and what you think we can learn 
from how they have been handled in the past.
    Dr. Brashears. Okay, sure. Thank you so much for clarifying 
that.
    I think that, as a scientist, given my background, our 
lessons learned are what we draw upon to make changes and to 
make our food supply safer. We talk about our food supply being 
the safest in the world, and I believe it is. The reason that 
it is is we have taken action when we have seen a problem and 
put controls in place to control our hazards that have occurred 
and caused a public health threat, and I am definitely 
dedicated to continuing that in my role with the agency.
    Senator Klobuchar. So would you worked closely with the FDA 
as well--I think that is part of this--on the food safety 
inspection?
    Dr. Brashears. Oh, absolutely. From my understanding, we 
have a good collaborative relationship with the FDA, but I 
would like to continue that and strengthen it. I think we have 
a great opportunity with the cultured meat product to 
strengthen our relationship with them, to make sure that our 
food is safe and we improve public health.
    Senator Klobuchar. Okay. Can you talk about your own 
experience with what--you know, how it is going to help with 
what we have seen in the news, the E. coli, the salmonella, 
Listeria, a lot of these foodborne illnesses that have come our 
way?
    Dr. Brashears. Sure. I have really a tremendous amount of 
hands-on experience in, No. 1, developing technologies that 
reduce E. coli and salmonella in meat and poultry systems, 
developing different--not only interventions but also just 
methods of process, in changing the process to make sure that 
our food is safe. I have worked with a number of small, very 
small, and large companies, evaluating their systems and making 
recommendations to make sure that their final product is safer 
and that we have improved public health.
    Senator Klobuchar. Okay. Thanks. Then, just last, back to 
what I started with, with the animal outbreaks and what we have 
seen, how do you think the Food Safety and Inspection Service 
can contribute to preparation and response? How would you 
ensure that the FSIS is working in a collaborative manner with 
other USDA mission areas?
    Dr. Brashears. I think that we have to have a large amount 
of transparency among our different agencies and communication 
in order--we cannot work in silos. We have to communicate, 
because they are all interrelated and we have to make decisions 
based on that communication network.
    Senator Klobuchar. All right. Thank you. I will give you 
some questions in writing, Ms. Earp, but for now I am just so 
happy Reagann does not use her iPhone all the time, or maybe 
even have one. It has just been a real pleasure. Every time I 
look at her she actually makes eye contact, which the rest of 
us do not do all the time, including myself. So thank you.
    Chairman Roberts. Senator Klobuchar, I always pay attention 
to you, and Reagann does as well.
    Senator Hoeven.
    Senator Hoeven. Me too, Chairman.
    Dr. Brashears, if you would talk--I know Senator Daines 
asked you about it, but it is very important that USDA has 
oversight in labeling when it comes to any type of cell-based 
meat products. In visiting with our ranchers, and particularly 
cow-calf producers, in our State and in others across the 
country, as well as the associations, you know, they want to 
know that the consumer is going to know when they are buying, 
you know, meat that is from animals that have been raised by 
our fantastic ranchers across the country, which is a different 
product--which is a different product than something that is 
grown in a laboratory. They want to know, very clearly, that 
that labeling is going to be done that way.
    I understand FDA has a role, and I chair Ag Appropriations 
and I get along great with Dr. Gottlieb and think he does a 
great job. So I am talking to him about it too, and I 
understand their food safety rule. When it comes to labeling 
and in terms of this oversight issue, very, very important that 
USDA has that role and that it is very clear as to what product 
the consumer is buying.
    So I want your thoughts on that, very specifically, in 
regard to cell-based meat.
    Dr. Brashears. I agree with you. I think the consumer has 
to know if the product comes from livestock or if it is cell-
based, and I think that that will be an important message to 
have on our labels. We have to have transparency with our 
consumer. They have to know what they are eating, and that is 
very important. It is an important aspect of this agency and it 
is something that I am very committed to.
    Senator Hoeven. Good. Thank you, Dr. Brashears. I 
appreciate that.
    All right. Dr. Hutchins, a couple of questions for you. 
First, talk about how we can do more to strengthen the already 
incredible work done by NIFA. You know, our university-based ag 
research has been phenomenal. We have North Dakota State 
University. There might be some others at the head of the table 
that would like to talk about their State universities. They 
are doing such an incredible job for our farmers and our 
ranchers, growing crops that we could not even grow before in 
previous places--disease resistant, you know, higher yields, 
all those things.
    How do we continue to strengthen that effort and do more 
with NIFA?
    Dr. Hutchins. Thank you for the question, Senator. The 
fundamental and the basic mission of the land-grant 
institutions is, in my mind, timeless. So I think the way we 
would strengthen that is we would spend some time--and again, 
please understand what I would like to do, if I am confirmed, 
is understand exactly how those systems, the priorities and so 
forth are set today, how the research programs are prioritized 
and categorized.
    Short of that, my philosophy would be to do several things. 
One is to ensure that for the investments that we are making in 
research that we have an end-to-end view. In other words, I am 
a big believer in fundamental research, but that fundamental 
sometimes, previously maybe referred to as basic research, 
needs to have an end in mind in terms of how it would be 
reduced to practice, and ultimately how it would be sustained.
    So it would be research for the purpose of making a 
difference and making a change. I know that a lot of the--
perhaps all of the NIFA programs do that today. To really 
strengthen that and align that on the priorities of Congress 
and on the priorities of the administration, whether it is in 
the climate change impact or adaptation area or whether it is 
in other areas.
    Senator Hoeven. Well, and I would like to invite you to our 
State, both to see what we are doing with NIFA but also with 
ARS out at North Dakota State, both the research and the 
extension aspect. I agree with you. That has got to be not only 
the research but the extension aspect that gets it out to the 
farmers and ranchers as well.
    Dr. Hutchins. Absolutely. The whole world of digital is 
changing and really opening up great new opportunities----
    Senator Hoeven. Huge.
    Dr. Hutchins [continuing]. and how it is delivered.
    Senator Hoeven. Dynamic. So then talk for just a minute 
about, USDA is looking at moving both NIFA and ERS out, you 
know, outside of the District. That is something we worked with 
on the funding site. So talk to me about your thoughts on how 
that should be done and how you intend to be part of that 
effort.
    Dr. Hutchins. Well, the first thing I would like to do, if 
I am confirmed, is really understand the work and the progress 
that has been made to this point, the analysis, the 
assessments. Because my interest would be to ensure, as I was 
indicating earlier, is to ensure that the science does not 
suffer, and that the great collaborative capabilities that NIFA 
has developed, and ERS, with other agencies and other 
departments, does not suffer.
    So there are a number of ways to do that. As I have 
indicated, I have been a part of a number of mergers. I have 
been in a number of different activities. It is an individual-
by-individual look, but keeping an eye on the overall strategy. 
The goals that the Secretary have outlined, I think, are the 
right goals.
    So my pledge would be to make sure that it is done in a way 
that is not disruptive and it is done in a way that actually, 
in the long term, and even the short term, I think, can enhance 
the capabilities and the effectiveness of those agencies.
    Senator Hoeven. Right. Cost effective but always with the 
idea of what best serves the farmer and the rancher out there. 
I like to say, America benefits every day from our farmers and 
ranchers, with the highest-quality, lowest-cost food supply in 
the world, right? So I think you are right on in terms of how 
you are approaching that and looking at it.
    Dr. Hutchins. Thank you, sir.
    Senator Hoeven. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman, and I know that 
some of my colleagues are probably eager to get over to the 
security briefing so I am going to submit most of my questions 
for the record. I just have one question for Dr. Hutchins, if I 
could.
    Dr. Hutchins, I want to draw your attention to the USDA 
Agricultural Research Service Facility in Morris, Minnesota, 
very important to Minnesota, which was slated to be closed in 
the President's Fiscal Year 2019 budget request. This facility 
houses the North Central Soil Conservation Research Laboratory, 
which provides really important research on soil and water 
quality and alternative crops also. Of course, at a time when 
agriculture is under so much stress and also worries about 
adapting to climate change it is particularly important.
    So just really briefly, can you tell me whether you would 
commit to advocating for the ARS facility in Morris to get the 
funding that it needs, and would you support keeping that open?
    Dr. Hutchins. Thank you, Senator. My first two years out of 
graduate school were in the State of Minnesota, and so it was a 
great experience. I have actually been to Morris. I cannot say 
I specifically participated or been involved with the ARS 
station.
    What I can commit to is really to understand the basis 
behind the recommendations for all of the closures that are 
outlined. There are, I believe, 90 ARS labs around the U.S., 
and some outside the U.S. So what I would commit to is really 
understanding each one of those and the role that they play, 
and then working to ensure that they are the most relevant and 
having the biggest impact.
    I can certainly commit to visiting and taking a personal 
interest in understanding that particular lab.
    Senator Smith. Well, I would urge you to visit it. It is a 
very impressive facility. I am disappointed you cannot commit 
to that but I look forward to continuing to have that 
conversation with you.
    Dr. Hutchins. I do as well. Thank you.
    Senator Smith. Thank you.
    Chairman Roberts. Thank you, Senator. Senator Gillibrand.
    Senator Gillibrand. Hello. Thank you, Mr. Chairman. It is 
lovely to see you all. I am delighted by our new Committee 
member. I hope you stick around.
    Chlorpyrifos is a pesticide known to harm brain development 
in children. For Dr. Hutchins, your work--you currently work 
for Corteva, a division of DowDuPont, that manufactures 
chlorpyrifos. After the EPA refused to ban this pesticide, 
against the recommendations of its own scientist, the Ninth 
Circuit Court ruled that chlorpyrifos must be removed from the 
market August 2018. Earlier this month, independent researchers 
found that the data submitted by DowDuPont to get chlorpyrifos 
approved in the U.S. and the EU contained significant errors 
and omissions.
    Do you support the permanent withdrawal of chlorpyrifos?
    Dr. Hutchins. Thank you, Senator, for the question. I have 
not been directly involved at all within the regulatory aspects 
or the science behind that aspect. What I have been involved 
with, over my career, is really the development of technologies 
that would allow us to diversity out of that. By the way, I 
have been retired from Corteva for several weeks now.
    As I said, what I indicated is my focus and my aspects have 
been in innovation and developing alternatives to all older 
technologies. I do not--you know, the body of science in the 
work that you are asking about really should be addressed by 
the U.S. EPA.
    Senator Gillibrand. If you are confirmed as chief 
scientist, how will you ensure that data provided by industry 
is accurate when they seek approval for products like C 
treatments or biotechnology?
    Dr. Hutchins. To the extent that the USDA would be 
providing that data from a regulatory standpoint, certainly we 
would focus on data-driven objective and clearly transparent 
studies and data creation. Most of the REE agencies do not 
provide the kind of data supported by regulatory, but to the 
extent that it does I certainly would ensure that those 
agencies participate in that transparent way.
    Senator Gillibrand. I think it is fair to say that the 
current administration has a problem accepting scientific 
consensus. Just last week, the President denied the validity of 
a congressionally mandated climate change report, drafted by 
scientists across 13 different agencies. Farmers know better, 
particularly farmers in upState New York and on Long Island. 
They can see climate change in their fields and orchards. They 
cannot ignore it because their livelihoods depend on adapting 
as the world changes.
    How would you ensure that the public can trust the 
scientific integrity of the USDA research, given the 
administrations habit of marginalizing and discrediting 
scientists whose research runs counter to their political 
agenda?
    Dr. Hutchins. Thank you. So what I would focus on would 
really be on developing an advocacy and credibility for the 
scientists themselves, and the science community, and ensuring 
that the integrity of research, the integrity of the advocacy 
for what the body of work is showing would be first and 
foremost.
    Senator Gillibrand. Who does the chief scientist at USDA 
serve--the President, the Secretary, the farmer, the industry, 
or the public?
    Dr. Hutchins. My answer would be it serves all of those, as 
well as the scientific community.
    Senator Gillibrand. When the interests of the 
administration or industry conflicts with the public interest, 
who should the chief scientist support?
    Dr. Hutchins. Well, the chief scientist, I believe, support 
in terms of the recommendations that are coming from the 
scientists within that mission area, and whether they are part 
of the REE mission area or whether they are part of the broader 
scientific community.
    Senator Gillibrand. Dr. Brashears, last week I wrote a 
letter, with Senator Blumenthal, to Secretary Perdue, urging 
him to disclose publicly the source of turkey contamination 
with salmonella. This outbreak has made 164 people sick, 
including a dozen in New York, and has been going on for more 
than a year. While FSIS has issued a recall for one brand of 
ground turkey products, Jennie-O, data released just yesterday 
by the USDA showed that nearly 15 percent of all turkey 
slaughter facilities have a failing grade when it comes to 
salmonella. More than 10 different companies have a failing 
facility.
    Should FSIS allow companies to ship meat from a plant that 
has been contaminated with a strain of salmonella known to be 
implicated in an ongoing outbreak?
    Dr. Brashears. Thank you for that question. At this time, 
salmonella is a huge concern for me, as well as a mother and as 
a consumer. I am glad that we have been able to trace back some 
of the causes of the salmonella back to the Jennie-O recall. I 
think that it is very important that the information we provide 
the consumer is accurate and we get them the information that 
they need to know how to--or which products are directly 
associated with the outbreak, and then also get them the 
information on how to properly handle the product.
    Senator Gillibrand. Thank you. I will submit three other 
questions on this topic for you, if you do not mind. I just 
want to get to one question for our last witness.
    Ms. Earp, the Des Moines Register reported that Secretary 
Perdue's former chief of staff, Heidi Green, directly 
intervened to require 4-H to withdraw a guidance document 
intended to help 4-H leaders make LGBT youth feel more included 
in the organization. A member of the USDA communications staff 
went so far as to reach out to New York's 4-H leadership to 
request they remove the guidelines they posted. The 
administration has been repeatedly demonstrated a shocking 
disdain for LGBT community.
    Would it be appropriate for the Assistant Secretary of 
Civil Rights to weigh in on this situation?
    Ms. Earp. Thank you, Senator. I am not familiar with the 4-
H situation that you mentioned. I have not been briefed on it. 
My professional and personal legacy is that every human being 
is entitled to civility, respect, fairness, and equity.
    Senator Gillibrand. Thank you, Ms. Earp. Thank you, Mr. 
Chairman.
    Chairman Roberts. Well, Reagann, it appears to me that we 
are done. I am going to conclude the hearing today, unless you 
have something to say to close this hearing.
    Ms. Davis. I want to thank you for the opportunity for 
letting me come up here and listen, and I just want to say that 
all you guys did a good job today.
    [Laughter and applause.]
    Chairman Roberts. A star is born.
    That will conclude our hearing today. I thank the nominees 
for taking time to address this Committee and answer the 
Committee's questions. We have learned a great deal today from 
the nominees. Their testimony provides us significant 
information, a solid basis upon which to report them favorably 
out of the Committee. Per our rules, we cannot do that today 
but we will endeavor to do so in the very near future.
    To that end, I would request of my fellow members, if they 
have any additional questions for the record that they be 
submitted to the Committee clerk by 5 p.m. today, as of 
November 28th. We look forward to receiving your responses and 
to further considering your nominations.
    The Committee is adjourned.
    [Whereupon, at 11:18 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           NOVEMBER 28, 2018

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           NOVEMBER 28, 2018

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                           NOVEMBER 28, 2018

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
